No. 19-161
INTHE

$,Upreme QI:ourt of tbe Wntteb 5'tates
DEPARTMENT OF HOMELAND SECURITY, et

al.'

Petitioners,
V.

VIJAYAKUMAR THURAISSIGIAM,

Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 22nd day of January, 2020, I caused three copies of the Brief ofAmici Curiae
Immigration Scholars in Support of Respondent to be served by third-party commercial
carrier on the counsel identified below, and caused an electronic version to be
transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules of this
Court. All parties required to be served have been served.
Noel J. Francisco
SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

950 Pennsylvania Ave, NW
Room 5616
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Petitioners

Lee Gelernt

AMERICAN CIVIL LIBERTIES UNION

125 Broad St
New York, NY 10004
(212 549-2616

lgelernt@aclu.org
Counsel for Respondent

